                     Reviews to Determine Architectural
                   Compliance of Information Technology
                    Acquisitions Need to Be Consistently
                        Performed and Documented

                                  November 2003

                       Reference Number: 2004-20-017




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                    November 28, 2003


       MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


       FROM:                         Gordon C. Milbourn III
                                     Acting Deputy Inspector General for Audit

       SUBJECT:                      Final Audit Report - Reviews to Determine Architectural
                                     Compliance of Information Technology Acquisitions Need to Be
                                     Consistently Performed and Documented (Audit # 200320014)


       This report presents the results of our review of the compliance of hardware and
       software procurements for non-Business Systems Modernization (non-BSM) systems
       with the Enterprise Architecture (EA).1 Our review evaluated selected Tier I
       (e.g., mainframe), Tier II (e.g., mid-range), and Tier III (e.g., end-user computers)
       procurement requisitions for compliance with the IRS’ EA.
       In summary, the IRS has issued interim procedures to promote compliance with its EA.2
       These procedures require that the respective Tier Owners3 within the Modernization and
       Information Technology Services organization perform a Tier Review4 to ensure that
       acquisition requests comply with the IRS’ EA. However, the procedures called for in
       IRS policy guidance are not consistently being followed and, as a result, potentially limit
       the IRS’ ability to ensure that the hardware and software purchases are consistent with




       1
         The EA defines the Internal Revenue Service’s (IRS) target business practices, the systems that enable the target
       business practices, and the technology that will support it, and serves as a guide to the IRS’ Modernization Program
       and investment decisions.
       2
         Chief Information Officer Memorandum dated November 14, 2001; Subject: Update to Delegation Order
       Number 28, Approval of Information Technology Resources. Guidance for satisfying requirements outlined in
       Delegation Order Number 28 are provided in Interim Internal Revenue Manual (IRM) 2.21 – Part 1 of the
       Acquisition Life Cycle: MITS Responsibilities, issued November 14, 2001, and effective February 4, 2002. Interim
       IRM 2.21 was reauthorized in March 2003.
       3
         The Tier Owner is the official in charge of the Tier Review.
       4
         A Tier Review is to be performed for each information technology requisition to assure it complies with the IRS’
       EA requirements.
                                                         2


its current and projected EA. The IRS uses the Request Tracking System (RTS)5 to
initiate procurement requisitions and document Tier Reviews. Of the 651 procurement
requisitions we reviewed on the RTS, 233 showed no indication of a Tier Review.
Within these 233 requisitions, we identified 92 procurements totaling $1.1 million that
were indicated on the RTS as being Ad Hoc requisitions.6 None of the Ad Hoc
requisitions had an indication of a Tier Review, and some of these requisitions explicitly
indicated that a Tier Review was not required. However, we were unable to obtain
written procedures that indicated Ad Hoc requisitions were exempt from the Tier Review
process. Having an Ad Hoc process that bypasses a Tier Review increases the risk of
purchasing equipment that is not compliant with the IRS’ EA.
In our review of a judgmental sample of hardcopy files for 54 of the 651 procurement
requisitions,7 42 of the 54 sampled items showed no evidence that a Tier Review was
performed. Since there was no evidence of a Tier Review being performed on these
42 purchases totaling $30.6 million, the IRS increases the risk of obtaining incompatible
information technology (IT) hardware and software that could necessitate additional
purchases to provide EA compliance and increases the potential for inefficient use of
resources.
Furthermore, hardcopy requisition files did not always provide evidence to corroborate
RTS data of a Tier Review. In many instances, we were unable to validate whether IT
purchases were compliant. These conditions occurred because Tier Owners did not
have complete lists of approved products readily available to facilitate Tier Reviews. In
addition, we noted that some IRS personnel were unfamiliar with IRS policy and
procedures to appropriately document Tier Reviews and ensure that designated
personnel conduct the Tier Reviews.
We recommended that the Chief Information Officer (CIO) ensure Tier Reviews are
performed, documented, and periodically reviewed for compliance with required
procedures. We also recommended that the CIO ensure Tier Owners develop complete
and readily available approved products lists to assist in the completion of Tier Reviews
to be performed on all non-BSM IT procurement requisitions.
Management’s Response: IRS management agreed with the recommendations
presented. The Enterprise Operations organization has measures in place that will
ensure all requisitions are reviewed for completeness and are in compliance with the
IRS’ EA, Delegation Order Number 28, and are Section 508 compliant. Requisitions will
not be forwarded for approval until all reviews (to include Tier I and II acquisitions) are

5
  The RTS provides functions throughout the acquisition process that include creation, routing, and approval of
requisitions for goods and services; electronic receipt and acceptance; and enhanced document attachment
capability. All procurement requisitions using budget funds from Fiscal Year 1999 and later should be entered in
the RTS.
6
  For Tier III, purchases of desktops and laptops are managed directly by the Tier Owner, with limited, documented
exceptions. Accordingly, in the event an Ad Hoc request for the purchase of a desktop or laptop arises, the
Acquisition Point of Contact should contact and transfer the request to the Tier III Point of Contact to manage the
acquisition, including all certifications and reviews.
7
  See Appendix I for a description of our judgmental sampling methodology.
                                            3


conducted. The Enterprise Operations organization has issued guidelines requiring that
complete products lists for Tier I and Tier II acquisitions accompany the requisition.
These lists will be available during Tier I and Tier II Reviews and will become a part of
the acquisition file documentation.
The End User Equipment and Services (EUES) organization will develop and implement
a procedure ensuring that Tier reviews for Tier III hardware and software purchases are
conducted, documented, and periodically reviewed for compliance with required
procedures for all non-BSM IT acquisitions. The procedure will be coordinated with the
Procurement organization to ensure purchases are not made without receiving Tier III
approval. The EUES organization has established a product list for customer review for
Tier III acquisitions. Efforts are being put in place to make it readily available for
customer review. The list will be made available during Tier III Reviews and will
become a part of the acquisition file documentation.
The Enterprise Networks organization adheres to policy and procedures as listed in
Delegation Order Number 28 and Internal Revenue Manual 2.21. It has developed an
additional set of procedures for internal use to ensure that the appropriate reviews and
approvals for Tier IV acquisitions are achieved. As a standard procedure, it will
continue to review all Tier IV requisitions for compliance prior to approval. The
Enterprise Network organization’s procurements are mostly governed by centralized
contracts that have specific products and services approved for compliance with the EA.
Management officials and reviewers of Tier IV procurements approve only those
products and services that are compliant through the specific contract. Management’s
complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers who are affected by the
report recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.
         Reviews to Determine Architectural Compliance of Information Technology
             Acquisitions Need to Be Consistently Performed and Documented




                                                 Table of Contents


Background ............................................................................................... Page 1
The Internal Revenue Service Has Limited Assurance That Non-Business
Systems Modernization Information Technology Procurements Are in
Compliance With the Projected Enterprise Architecture ........................... Page 2
         Recommendation 1: ........................................................... Page 8
         Recommendation 2: ........................................................... Page 9

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 10
Appendix II – Major Contributors to This Report........................................ Page 13
Appendix III – Report Distribution List ....................................................... Page 14
Appendix IV – Outcome Measures ............................................................ Page 15
Appendix V – Management’s Response to the Draft Report ..................... Page 17
       Reviews to Determine Architectural Compliance of Information Technology
           Acquisitions Need to Be Consistently Performed and Documented

                                One of the major strategies contained in the Fiscal
Background
                                Year (FY) 2000-2005 Internal Revenue Service (IRS)
                                Strategic Plan is to improve property stewardship and asset
                                management compliance with the IRS’ Enterprise
                                Architecture (EA). The EA defines the IRS’ target business
                                practices, the systems that enable these practices, and the
                                technology that will support the EA. It also serves as a
                                guide to the IRS’ Modernization Program and investment
                                decisions.
                                In November 2001, the IRS Chief Information Officer
                                (CIO) issued Delegation Order Number 28, which became
                                effective in February 2002. This Delegation Order stated
                                that the Modernization, Information Technology, and
                                Security Services executives have been delegated signature
                                authority and ultimate responsibility for approving
                                information technology (IT) goods and services.1 Since this
                                Delegation Order was issued, over $566 million in
                                procurements have been made using this delegated signature
                                authority. This includes IT hardware and software
                                procurements for non-Business Systems Modernization
                                (BSM) Tier I (e.g., mainframe), Tier II (e.g., mid-range),
                                and Tier III (e.g., end-user computers) systems.
                                Audit work was conducted in the Modernization,
                                Information Technology, and Security Services organization
                                at IRS Headquarters in New Carrollton, Maryland, from
                                May to July 2003. Subsequent to our field work the
                                Modernization, Information Technology, and Security
                                Services organization was reorganized and renamed the
                                Modernization and Information Technology Services
                                (MITS) organization. The audit was conducted in
                                accordance with Government Auditing Standards. Detailed
                                information on our audit objective, scope, and methodology
                                is presented in Appendix I. Major contributors to the report
                                are listed in Appendix II.

                                1
                                  CIO Memorandum dated November 14, 2001; Subject: Update to
                                Delegation Order Number 28, Approval of Information Technology
                                Resources. Guidance for satisfying requirements outlined in Delegation
                                Order Number 28 are provided in Interim Internal Revenue Manual
                                (IRM) 2.21 – Part 1 of the Acquisition Life Cycle: MITS
                                Responsibilities, issued November 14, 2001, and effective
                                February 4, 2002. Interim IRM 2.21 was reauthorized in March 2003.
                                                                                               Page 1
         Reviews to Determine Architectural Compliance of Information Technology
             Acquisitions Need to Be Consistently Performed and Documented

                                  The Office of Management and Budget (OMB)
The Internal Revenue Service
                                  Circular A-130, Management of Federal Information
Has Limited Assurance That
                                  Resources, dated November 28, 2000, requires agencies to
Non-Business Systems
                                  use or create an EA. Furthermore, the head of each Federal
Modernization Information
                                  agency is required to effectively and efficiently manage
Technology Procurements Are in
                                  agency information and IT, and develop policies and
Compliance With the Projected
                                  procedures that provide for timely acquisition of required
Enterprise Architecture
                                  IT. The agency’s capital planning and investment control
                                  process must build from the agency’s current EA and its
                                  transition from current architecture to target architecture.
                                  Guidance derived from OMB Circular A-11, Planning,
                                  Budgeting, Acquisition, and Management of Capital Assets,
                                  dated June 2002, further indicates that Federal agency
                                  managers and staff involved in IT planning and investment
                                  decision making assess IT initiatives in terms of their costs,
                                  risks, and expected returns.
                                  The IRS’ Interim Internal Revenue Manual (IRM) 2.21,
                                  Part 1 of the Acquisition Life Cycle: MITS Responsibilities,
                                  issued November 14, 2001, and effective February 4, 2002,
                                  states that executives with signature authority are fully
                                  responsible for each requisition they approve, regardless of
                                  the cost. The Acquisition Life Cycle describes the
                                  cradle-to-grave processes surrounding an acquisition,
                                  beginning with identifying a business requirement, refining
                                  the business requirement into a technical requirement,
                                  obtaining all reviews and concurrences necessary to prepare
                                  a requisition, procuring the acquisition, and managing the
                                  work related to maintaining and supporting an acquisition,
                                  such as upgrades.
                                  The interim procedures further state that Ad Hoc requests2
                                  for Tier III hardware should be transferred to the Tier III
                                  Point of Contact to ensure completion of all certifications
                                  and reviews. This guidance mandates the use of a
                                  Requisition Summary to ensure that all necessary reviews


                                  2
                                    For Tier III, purchases of desktops and laptops are managed directly by
                                  the Tier Owner, with limited, documented exceptions. Accordingly, in
                                  the event an Ad Hoc request for the purchase of a desktop or laptop
                                  arises, the Acquisition Point of Contact should contact and transfer the
                                  request to the Tier III Point of Contact to manage the acquisition,
                                  including all certifications and reviews.
                                                                                                   Page 2
Reviews to Determine Architectural Compliance of Information Technology
    Acquisitions Need to Be Consistently Performed and Documented

                         (i.e., Tier Review, Impact Assessment, Security Review) are
                         conducted before approving IT requisitions. The
                         Requisition Summary summarizes the status of all reviews
                         and concurrences to give the Management Approver, with
                         signature authority under Delegation Order Number 28,
                         assurance that the requisition is complete and accurate.
                         Finally, the procedures mandated that the Requisition
                         Summary is to be included as an electronic attachment in
                         the IRS’ Request Tracking System (RTS). The RTS
                         provides functions throughout the acquisition process that
                         include creation, routing, and approval of requisitions for
                         goods and services; electronic receipt and acceptance; and
                         enhanced document attachment capability. All procurement
                         requisitions using budget funds from FY 1999 and later
                         should be entered in the RTS.
                         Interim IRS procedures state that a Tier Review is to be
                         performed for each IT requisition to assure it complies with
                         the IRS’ EA requirements. Additionally, documentation
                         related to all reviewed and approved requisitions should be
                         maintained in the originating office and available for
                         comparison against the Requisition Summary under the
                         Compliance Review process3 conducted by the Office of
                         Technical Contract Management in the IRS Office of
                         Procurement at the direction of the MITS organization.
                         As indicated above, the interim version of the procedures
                         governing the IRS’ IT requisition process has been in effect
                         since February 4, 2002. These procedures were scheduled
                         for dissemination in September 2003 for enterprise-wide
                         review and comment. In addition, the Office of Technical
                         Contract Management made several recommendations
                         addressing the process of IT requisitions in a prior in-house
                         review.4 For example, the review made recommendations
                         that included clarification of the authority of individuals
                         within the MITS organization to approve IT requisitions.
                         However, key personnel assigned to oversee implementation


                         3
                           Process established for measuring and reporting compliance of IT
                         acquisitions with Delegation Order Number 28.
                         4
                           Compliance Review – Information Technology Requisitions
                         (February to June 2002); review results issued September 6, 2002.
                                                                                        Page 3
Reviews to Determine Architectural Compliance of Information Technology
    Acquisitions Need to Be Consistently Performed and Documented

                         of the in-house review’s recommendations left the IRS, and
                         no one was designated to continue this effort. As explained
                         below, our review of IT procurement requisitions indicated
                         that Tier Reviews were not always being performed and
                         documented to ensure compliance with the EA.
                         Tier Reviews of IT acquisitions were not consistently
                         reflected on the RTS as required
                         Between February 4, 2002, and May 21, 2003, the IRS
                         processed 651 requisitions totaling approximately
                         $219 million for IT hardware and software items relating to
                         Tier I, Tier II, and Tier III purchases.5 Review of the
                         procurement request documentation on the RTS indicated
                         that 233 requisitions (36 percent), totaling $24.1 million, of
                         the 651 requisitions had not been subjected to the required
                         Tier Review, as shown in Table 1.
                         Table 1: Requisitions Reviewed on the RTS

                             Requisition          Tier        Est.         No Tier        Est.
                               Type              Review      Funds         Review        Funds
                                                            (millions)                  (millions)
                             Tier I & II            69         $40.7          16          $4.7
                             Hardware
                             Tier I & II            48         $50.0           9          $6.3
                             Software
                        Tier III Hardware          155         $50.1          83          $3.3
                        Tier III Software          146         $53.9          33          $8.7
                              Subtotals            418        $194.7          141         $23.0
                         Tier III Ad Hoc            0          $0.0           92          $1.1
                         Grand Totals              418        $194.7          233         $24.1
                         Source: The IRS’ RTS data from February 4, 2002, to May 21, 2003.

                         For 141 of the 233 requisitions, no justification was
                         provided on the RTS for not performing a Tier Review. The
                         141 requisitions accounted for $23 million. This indicates
                         that, in the case of all three Tiers we reviewed, personnel

                         5
                             For details on the sampling methodology, see Appendix I.
                                                                                         Page 4
Reviews to Determine Architectural Compliance of Information Technology
    Acquisitions Need to Be Consistently Performed and Documented

                         were not consistently following established procedures to
                         document the required Tier Reviews because there was no
                         clear accountability for ensuring that IRS personnel strictly
                         adhere to the procedures.
                         The remaining 92 of the 233 requisitions were identified on
                         the RTS as Ad Hoc requests and accounted for
                         $1.1 million. None of the Ad Hoc requisitions on the RTS
                         had an indication of a Tier Review, and some of these
                         requisitions explicitly indicated that a Tier Review was not
                         required. However, we were unable to obtain written
                         procedures that indicated Ad Hoc requisitions were exempt
                         from the Tier Review process. Having a process that
                         bypasses a Tier Review increases the risk of purchasing
                         equipment that is not compliant with the IRS’ EA.
                         We also found that the Tier Owners (Tiers I, II, and III)
                         were not consistent in preparing a Requisition Summary on
                         the RTS. For example, Tier personnel did not always enter
                         a Requisition Summary into the RTS. This indicates that
                         the process of uploading the electronic copy of the
                         Requisition Summary is not consistently followed across the
                         Tiers.
                         Hardcopy requisition file documentation did not always
                         contain evidence that a Tier Review had been conducted
                         We requested the original requisition files for a judgmental
                         sample of 238 of the 651 requisitions so we could review
                         the documentation supporting the required Tier Review.
                         Since the files are located in various geographical offices,
                         we agreed to reduce our sample, at IRS management’s
                         request, to 54 requisition files, consisting of 25 that the RTS
                         indicated as having a Tier Review and 29 indicated as not
                         having a Tier Review. As shown in Table 2, we were able
                         to obtain the requisition files for only 47 of the
                         54 requisitions. Of the 54 files, 42 contained no evidence
                         that a Tier Review had been conducted, including 16 where
                         the RTS showed a review had been conducted.




                                                                                 Page 5
Reviews to Determine Architectural Compliance of Information Technology
    Acquisitions Need to Be Consistently Performed and Documented

                          Table 2: Sample of Requisition Files Reviewed

                                            Requisition File Request   Results of Review for Evidence
                               Population           Results                    of Tier Review6
                       Category per the
                                 RTS      Sample     File     File Not   No       Evidence Other7
                                           Size Received Received Evidence

                       No Tier       233        29        23          6         26          28       1
                       Review
                       Tier          418        25        24          1         16          8        1
                       Review
                       Totals        651        54        47          7         42         10        2
                          Source: The IRS’ requisition files.

                          As shown in Table 2, our review of supporting requisition
                          file documentation showed that 26 of the 29 requisition files
                          corroborated the RTS data showing no evidence of a Tier
                          Review. These 26 requisitions accounted for $16.1 million.
                          Additionally, only 8 of the 25 requisition files could
                          corroborate the RTS data of a Tier Review having been
                          performed. For 16 of the 25 RTS requisitions reflected as
                          having been Tier Reviewed on the RTS, no corroborating
                          evidence was found in the requisition files that a Tier
                          Review had been performed. These 16 requisitions
                          accounted for $14.5 million.
                          In the case of all three Tiers, the required reviews were not
                          documented as performed or conducted at all because
                          personnel were not formally designated to ensure Tier
                          Review procedures were strictly followed. Furthermore,
                          Tier personnel were not consistent in maintaining electronic

                          6
                            Hardcopy files were examined for evidence of a Tier Review.
                          Requisitions for which no file documentation was provided are included
                          in the “No Evidence” column.
                          7
                            An agreement exists between the Criminal Investigation (CI) and
                          MITS organizations that exempts the CI organization from the MITS
                          organization standards for the purchase of investigative equipment. IRS
                          management advised us there are similar agreements with other
                          organizations, but no documentation was provided to support this
                          statement.
                          8
                            Documentation of a Tier Review was contained in these
                          two requisition files, although the RTS indicated that a Tier Review had
                          not been conducted.
                                                                                          Page 6
Reviews to Determine Architectural Compliance of Information Technology
    Acquisitions Need to Be Consistently Performed and Documented

                         or paper requisition documentation supporting the
                         performance of the required Tier Review. Procurement
                         personnel indicated that contracting officers are not
                         responsible for maintaining requisition file documentation
                         in the official contract file, which necessitated contacting
                         the originating office contacts listed on the RTS to obtain
                         original requisition files. As a result, Tier representatives
                         were required to spend excessive time during our review
                         attempting to verify performance of Tier Reviews on the
                         IRS’ RTS and in locating supporting documentation.
                         Without consistent and complete Tier Reviews to ensure
                         development of adequate originating office requisition file
                         documentation (electronic or hardcopy), the IRS has limited
                         assurance that its IT purchases comply with the EA.
                         Complete lists of approved products were not readily
                         available for use to validate and facilitate Tier Reviews
                         Interim IRS procedures require Tier Owners to use a Tier
                         Review to verify that hardware and software acquisitions
                         comply with approved products lists that are developed
                         based on EA requirements. Approved products lists serve
                         as reference guides for the Tier Owner or designated
                         approver to consult before giving approval to hardware
                         and/or software requisitions.
                         From the RTS and the requisition file documentation
                         provided by the IRS, we attempted to determine whether our
                         sampled requisitions were compliant with the EA.
                         However, we were unable to determine compliance with the
                         EA because approved products lists for hardware and/or
                         software purchases were either not complete or were not
                         readily accessible by Tier representatives for use in
                         verifying compliance of hardware and software acquisitions.
                         For example, we noted that Tier Review and approval
                         personnel for Tier III were unable to use approved products
                         lists for hardware and software requisitions because the lists
                         had not been developed or made readily available for use.
                         Without developed and accessible approved products lists
                         for each Tier, acquisition approvals by Tier Owners would
                         require extensive time to determine compliance for almost
                         every procurement requisition.


                                                                                Page 7
Reviews to Determine Architectural Compliance of Information Technology
    Acquisitions Need to Be Consistently Performed and Documented

                         By not consistently implementing established procedures
                         and using prescribed tools (i.e., the Requisition Summary
                         and approved products lists) to perform these reviews, the
                         IRS has increased its risk of obtaining incompatible IT
                         hardware and software that could necessitate additional
                         purchases to provide EA compliance. Based on our work,
                         the IRS has made over $31 million in purchases that may
                         not be compliant and that represent a potential inefficient
                         use of its resources (see Appendix IV).

                         Recommendations

                         The CIO should ensure that:
                         1. Tier Reviews are conducted, documented, and
                            periodically reviewed for compliance with required
                            procedures for all non-BSM IT acquisitions across all
                            Tiers, including Telecommunications.
                         Management’s Response: The Enterprise Operations
                         organization has measures in place that will ensure all
                         requisitions are reviewed for completeness and are in
                         compliance with the IRS’ EA, Delegation Order
                         Number 28, and are Section 508 compliant. Requisitions
                         will not be forwarded for approval until all reviews (to
                         include Tier I and II acquisitions) are conducted.
                         The End User Equipment and Services (EUES) organization
                         will develop and implement a procedure ensuring that Tier
                         Reviews for Tier III hardware and software purchases are
                         conducted, documented, and periodically reviewed for
                         compliance with required procedures for all non-BSM IT
                         acquisitions. The procedure will be coordinated with the
                         Procurement organization to ensure purchases are not made
                         without receiving Tier III approval.
                         The Enterprise Networks organization adheres to policy and
                         procedures as listed in Delegation Order Number 28 and
                         IRM 2.21. It has developed an additional set of procedures
                         for internal use to ensure that the appropriate reviews and
                         approvals for Tier IV acquisitions are achieved. As a
                         standard procedure, the Enterprise Networks organization
                         will continue to review all Tier IV requisitions for
                         compliance prior to approval.
                                                                               Page 8
Reviews to Determine Architectural Compliance of Information Technology
    Acquisitions Need to Be Consistently Performed and Documented

                         2. Complete lists of approved products are developed and
                            made readily available for use by reviewers to facilitate
                            Tier Reviews.
                         Management’s Response: The Enterprise Operations
                         organization has issued guidelines requiring that complete
                         products lists for Tier I and Tier II acquisitions accompany
                         the requisition. These lists will be available during Tier I
                         and Tier II Reviews and will become a part of the
                         acquisition file documentation.
                         The EUES organization has established a product list for
                         customer review for Tier III acquisitions. Efforts are being
                         put in place to make it readily available for customer
                         review. The list will be made available during Tier III
                         Reviews and will become a part of the acquisition file
                         documentation.
                         The Enterprise Network organization’s procurements are
                         mostly governed by centralized contracts that have specific
                         products and services approved for compliance with the EA.
                         Management officials and reviewers of Tier IV
                         procurements approve only those products and services that
                         are compliant through the specific contract.




                                                                                Page 9
         Reviews to Determine Architectural Compliance of Information Technology
             Acquisitions Need to Be Consistently Performed and Documented

                                                                                                    Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the compliance of hardware and software
procurements for non-Business Systems Modernization (non-BSM) systems with the Enterprise
Architecture (EA).1 To accomplish this objective, we:
I.      Evaluated the acquisition review process to determine whether hardware and software
        procurements were properly evaluated and approved prior to being awarded.
        A.       Evaluated the purchasing process for non-BSM systems.
        B.       Evaluated the Tier Review processes2 to ensure acquisitions (hardware and/or
                 software) requirements were properly reviewed prior to being awarded.
II.     Reviewed hardware and software procurements for non-BSM Tier I (e.g., mainframe),
        Tier II (e.g., mid-range), and Tier III (e.g., end-user computers) systems to determine
        whether they complied with the EA.
        A.       Reviewed Information Technology Asset Management System (ITAMS)
                 information to identify the information technology (IT) inventory of hardware
                 and/or software.
                 We obtained a data extract of the ITAMS database covering the period
                 February 4, 2002, to May 25, 2003, and determined the data could not be used in
                 correlating requisition numbers in the ITAMS to those in the Request Tracking
                 System (RTS).3 The RTS data were used to identify the IT inventory.
        B.       Identified non-BSM procurements in the RTS.
        C.       Analyzed data obtained through the ITAMS (step II.A. above) and the
                 requisitions identified through the RTS (step II.B. above) for testing EA
                 compliance.




1
  The EA defines the Internal Revenue Service’s (IRS) target business practices, the systems that enable the target
business practices, and the technology that will support it, and serves as a guide to the IRS’ Modernization Program
and investment decisions.
2
  Process that ensures information technology (IT) acquisition requests comply with the IRS’ EA, which may consist
of an architectural or standards review for the given IT acquisition.
3
  The RTS provides functions throughout the acquisition process that include creation, routing, and approval of
requisitions for goods and services; electronic receipt and acceptance; and enhanced document attachment
capability. All procurement requisitions using Fiscal Year 1999 budget funds and later should be entered in the
RTS.
                                                                                                           Page 10
         Reviews to Determine Architectural Compliance of Information Technology
             Acquisitions Need to Be Consistently Performed and Documented

                 We selected all RTS requisitions from February 4, 2002,4 to May 21, 2003, using
                 the procurement accounting sub-object codes (SOC) of 3151, 3164, 3165, and
                 3152. These SOCs represent Capitalized Software (Tiers I and II), Capitalized
                 Automated Data Processing (ADP) Equipment (Tiers I and II), Capitalized ADP
                 Equipment (Tier III), and Non-Capitalized Software (Tier III), respectively, with
                 status codes of 90 (partial receipt) and 91 (complete receipt). This represented
                 651 requisitions as our population from the RTS. We evaluated all
                 651 requisitions and divided these into 2 populations representing requisitions that
                 were Tier Reviewed and requisitions that were not Tier Reviewed.
                 Due to difficulties the IRS had in locating hardcopy procurement requisition files,
                 RTS data validation of Tier Reviews was limited to items in our judgmental
                 sample.5 Data validation of Tier Reviews relied upon hardcopy procurement
                 requisition files for corroborative evidence. We limited our judgmental sample
                 to 54 requisitions per IRS management’s request (25 Tier Reviewed and 29 not
                 Tier Reviewed). The 54 requisitions were selected from the RTS data extract
                 covering the period February 4, 2002, to May 21, 2003 (see below for selection
                 methodology of the 54 items).
                 Selection of Judgmental Sample
                 From the 651 requisitions, 3 populations were defined and represented: Tier
                 Reviewed (418 requisitions), Not Tier Reviewed (141 requisitions), and
                 Ad Hoc6 (92 requisitions).
                 Tier Reviewed: Of 418 requisitions that were shown on the RTS to be Tier
                 Reviewed, 25 were sampled. We selected a judgmental sample of requisitions
                 above the following dollar thresholds for each of the SOC categories as follows:
                 SOC 3151          $500,000.
                 SOC 3152          $75,000.
                 SOC 3164          $250,000.
                 SOC 3165          $100,000.
                 This selection resulted in a sample of 96 requisitions. The IRS stated this
                 documentation request was too large, and due to the IRS’ difficulties noted above,


4
  The IRS’ Delegation Order Number 28 and Interim Internal Revenue Manual 2.21 became effective
February 4, 2002, and mandated that Tier Reviews be performed.
5
  A judgmental sample was used due to difficulties the IRS had in locating requisition files.
6
  For Tier III, purchases of desktops and laptops are managed directly by the Tier Owner, with limited, documented
exceptions. Accordingly, in the event an Ad Hoc request for the purchase of a desktop or laptop arises, the
Acquisition Point of Contact should contact and transfer the request to the Tier III Point of Contact to manage the
acquisition, including all certifications and reviews.
                                                                                                           Page 11
Reviews to Determine Architectural Compliance of Information Technology
    Acquisitions Need to Be Consistently Performed and Documented

     we further limited our sample size. From the listing of 96, we selected a
     judgmental sample by selecting the 1st requisition and every 4th requisition
     thereafter. This resulted in a selection of, and request for, 25 requisitions.
     Not Tier Reviewed: There were 233 total requisitions in this population. We
     removed the 92 Ad Hoc requisitions due to the assertion made that they were
     exempt from the Tier Review process. This made our total population of
     exceptions for this test 141 requisitions. From this 141, we selected a judgmental
     sample by selecting the 1st requisition and every 5th requisition thereafter. This
     resulted in a selection of, and request for, 29 requisitions.




                                                                                      Page 12
       Reviews to Determine Architectural Compliance of Information Technology
           Acquisitions Need to Be Consistently Performed and Documented

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary V. Hinkle, Director
Theodore Grolimund, Audit Manager
Mark Carder, Senior Auditor
Myron Gulley, Senior Auditor
Steven Gibson, Auditor
Linda Screws, Auditor




                                                                                         Page 13
       Reviews to Determine Architectural Compliance of Information Technology
           Acquisitions Need to Be Consistently Performed and Documented

                                                                              Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief Information Officer OS:CIO
Chief, Information Technology Services OS:CIO:I
Director, Procurement OS:A:P
Acting Director, End User Equipment and Services OS:CIO:I:EU
Director, Enterprise Operations OS:CIO:I:EO
Director, Infrastructure, Architecture, and Engineering OS:CIO:I:IA
Director, Portfolio Management OS:CIO:R:PM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
        Chief, Information Technology Services OS:CIO:I
        Director, Procurement OS:A:P
        Acting Director, End User Equipment and Services OS:CIO:I:EU
        Director, Enterprise Operations OS:CIO:I:EO
        Director, Infrastructure, Architecture, and Engineering OS:CIO:I:IA
        Manager, Program Oversight and Coordination Office OS:CIO:R:PM:PO




                                                                                   Page 14
         Reviews to Determine Architectural Compliance of Information Technology
             Acquisitions Need to Be Consistently Performed and Documented

                                                                                                   Appendix IV


                                            Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
    •   Inefficient Use of Resources – Potential; $16,121,659 (see page 2).
Methodology Used to Measure the Reported Benefit:
In our examination of requisitions using the Request Tracking System (RTS),1 we identified
141 requisitions that had no indication that a Tier Review2 had occurred. Without Tier Reviews,
the Internal Revenue Service (IRS) has no assurance that its purchases are in compliance with
the Enterprise Architecture (EA).3
We selected a judgmental sample of 29 requisitions from the 141 to examine the hardcopy
requisition files to identify evidence that a Tier Review had occurred. Our review of supporting
requisition file documentation showed there was no evidence of Tier Review for 26 of these
29 requisitions. These 26 requisitions accounted for $16,121,659.
Type and Value of Outcome Measure:
    •   Inefficient Use of Resources – Potential; $1,107,912 (see page 2).
Methodology Used to Measure the Reported Benefit:
In our examination of requisitions using the RTS, we identified 92 Tier III Ad Hoc requisitions4
that had no indication that a Tier Review had occurred. These requisitions accounted for
$1,107,912. Without Tier Reviews, the IRS has no assurance that its Tier III Ad Hoc
requisitions comply with the EA.

1
  The RTS provides functions throughout the acquisition process that include creation, routing, and approval of
requisitions for goods and services; electronic receipt and acceptance; and enhanced document attachment
capability. All procurement requisitions using budget funds from Fiscal Year 1999 and later should be entered in
the RTS.
2
  A Tier Review is to be performed for each information technology requisition to assure it complies with the IRS’
Enterprise Architecture requirements.
3
  The EA defines the IRS’ target business practices, the systems that enable the target business practices, and the
technology that will support it, and serves as a guide to the IRS’ Modernization Program and investment decisions.
4
  For Tier III, purchases of desktops and laptops are managed directly by the Tier Owner, with limited, documented
exceptions. Accordingly, in the event an Ad Hoc request for the purchase of a desktop or laptop arises, the
Acquisition Point of Contact should contact and transfer the request to the Tier III Point of Contact to manage the
acquisition, including all certifications and reviews.
                                                                                                           Page 15
        Reviews to Determine Architectural Compliance of Information Technology
            Acquisitions Need to Be Consistently Performed and Documented

Type and Value of Outcome Measure:
   •   Inefficient Use of Resources – Potential; $14,455,395 (see page 2).
Methodology Used to Measure the Reported Benefit:
We selected a judgmental sample of 25 requisitions from the 418 requisitions we found to have
an indication of a Tier Review on the RTS. For 16 of the 25 requisitions, there was no
supporting documentation of a Tier Review. Without Tier Reviews, the IRS has no assurance
that its information technology purchases are in compliance with the EA. These 16 requisitions
accounted for $14,455,395.




                                                                                        Page 16
Reviews to Determine Architectural Compliance of Information Technology
    Acquisitions Need to Be Consistently Performed and Documented

                                                               Attachment V


            Management’s Response to the Draft Report




                                                                      Page 17
Reviews to Determine Architectural Compliance of Information Technology
    Acquisitions Need to Be Consistently Performed and Documented




                                                                      Page 18
Reviews to Determine Architectural Compliance of Information Technology
    Acquisitions Need to Be Consistently Performed and Documented




                                                                      Page 19
Reviews to Determine Architectural Compliance of Information Technology
    Acquisitions Need to Be Consistently Performed and Documented




                                                                      Page 20
Reviews to Determine Architectural Compliance of Information Technology
    Acquisitions Need to Be Consistently Performed and Documented




                                                                      Page 21
Reviews to Determine Architectural Compliance of Information Technology
    Acquisitions Need to Be Consistently Performed and Documented




                                                                      Page 22
Reviews to Determine Architectural Compliance of Information Technology
    Acquisitions Need to Be Consistently Performed and Documented




                                                                      Page 23
Reviews to Determine Architectural Compliance of Information Technology
    Acquisitions Need to Be Consistently Performed and Documented




                                                                      Page 24
